No. 20-827
In the

Supreme Court of the United States
UNITED STATES OF AMERICA,
Petitioner,
v.
ZAYN AL-ABIDIN MUHAMMAD HUSAYN,
A.K.A. ABU ZUBAYDAH, et al.,
Respondents.
On Writ of Certiorari to the United States
Court of A ppeals for the Ninth Circuit

BRIEF OF AMICUS CURIAE
BILAL ABDUL KAREEM IN SUPPORT
OF THE RESPONDENTS
Eric L. Lewis
Counsel of Record
Tara J. Plochocki
Lewis Baach K aufmann
Middlemiss PLLC
1101 New York Avenue, NW,
Suite 1000
Washington, DC 20005
(202) 833-8900
eric.lewis@lbkmlaw.com
Counsel for Amicus Curiae
306751

A
(800) 274-3321 • (800) 359-6859

i
TABLE OF CONTENTS
Page
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . . i
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . . . ii
INTEREST OF AMICUS  . . . . . . . . . . . . . . . . . . . . . . . . 1
SUMMARY OF ARGUMENT  . . . . . . . . . . . . . . . . . . . . 4
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
I.

The government’s position on the state
secrets privilege has no limiting principle
and leads to the absurd conclusion that it has
the power to decide to kill its own citizens in
secret without any due process or right to
judicial relief . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
A. T he gover nment used the st at e
secrets privilege to foreclose Kareem’s
justiciable claim demanding his Fifth
A mendment right to due process
before his government could kill him  . . . . . 7
B. The government admits that its view of
the state secrets privilege is so sweeping
that it would allow it to target and kill
U.S. citizens without due process,
including a federal judge on U.S. soil  . . . . . 9

ii
Table of Contents
Page
II. Dispositive deference to the Executive’s
claim of a risk to national security violates the
separation of powers and results in abuses of
the state secrets privilege . . . . . . . . . . . . . . . . . . 13
III. Courts should evaluate claims of state
secrets privilege in the specific context of
the case and reject them where they are
facially unreasonable . . . . . . . . . . . . . . . . . . . . . . 16
IV. State secrets should be subject to the
ordinary limitations on privilege . . . . . . . . . . . . 18
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
APPENDIX  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1a

iii
TABLE OF CITED AUTHORITIES
Page
CASES:
Al-Haramain Islamic Found., Inc. v. Bush,
507 F.3d 1190 (9th Cir. 2007) . . . . . . . . . . . . . . . . . . . 15
Ellsberg v. Mitchell,
709 F.2d 51 (D.C. Cir. 1983) . . . . . . . . . . . . . . . . . . . . 16
Franklin v. Gwinnett Cty. Pub. Sch.,
503 U.S. 60 (1992) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
Husayn v. Mitchell,
938 F.3d 1123 (9th Cir. 2019),
cert. granted sub nom. United States v.
Husayn, No. 20-827, 2021 WL 1602639
(U.S. Apr. 26, 2021) . . . . . . . . . . . . . . . . . . . . . . . . . 4, 15
Kareem v. Haspel,
412 F. Supp. 3d 52 (D.D.C. 2019), vacated and
remanded, 986 F.3d 859 (D.C. Cir. 2021) . . . . . passim
Marbury v. Madison,
5 U.S. 137 (1803)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
Mistretta v. United States,
488 U.S. 361 (1989)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
Mitchell v. Forsyth,
472 U.S. 511 (1985)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 14

iv
Cited Authorities
Page
Molerio v. F.B.I.,
749 F.2d 815 (D.C. Cir. 1984) . . . . . . . . . . . . . . . . . . . 16
Nat’l Laws. Guild v. Att’y Gen.,
96 F.R.D. 390 (S.D.N.Y. 1982)  . . . . . . . . . . . . . . . . . . 19
New York Times Co. v.
U.S. Department of Justice,
756 F.3d 100 (2d Cir. 2014), opinion
amended on denial of reh’g, 758 F.3d 436
(2d Cir. 2014), supplemented, 762 F.3d 233
(2d Cir. 2014)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
Roviaro v. United States,
353 U.S. 53 (1957) . . . . . . . . . . . . . . . . . . . . . . . . . . 8, 19
United States v. Abu-Jihaad,
630 F.3d 102 (2d Cir. 2010) . . . . . . . . . . . . . . . . . . . . . . 8
United States v. Reynolds,
345 U.S. 1 (1953)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 4, 14
Zaidan v. Trump,
317 F. Supp. 3d 8 (D.D.C. 2018) . . . . . . . . . . . . . . . . . . 7
Zivotofsky ex rel. Zivotofsky v. Clinton,
566 U.S. 189 (2012)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
Zuckerbraun v. Gen. Dynamics Corp.,
935 F.2d 544 (2d Cir. 1991) . . . . . . . . . . . . . . . . . . . . . 19

v
Cited Authorities
Page
MISCELLANEOUS:
Transcript of Oral Argument, Kareem v. Haspel,
986 F.3d 859 (D.C. Cir. 2021), available
at https://bit.ly/37REoiI/  . . . . . . . . . . . . . . . . . . .  10, 13
Scott Shane, U.S. Approves Targeted Killing of
American Cleric, The New York Times (Apr.
6, 2010), https://www.nytimes.com/2010/04/07/
world/middleeast/07yemen.html . . . . . . . . . . . . . . . . 18

1
INTEREST OF AMICUS1
There understandably would be little sympathy in
this country for respondent Abu Zubaydah, if, as the
CIA wrongly believed, he was a senior leader in al Qaida,
assisting Osama bin Laden in ending the lives of 3,000
Americans and forever destroying their families and
the sense of security taken for granted by millions of
Americans. But he was not bin Laden’s co-conspirator. He
was not even al Qaida. The CIA brutally tortured him for
no reason. Without apology, the government insists that it
can hide behind the state secrets privilege to preclude Abu
Zubaydah from deposing his torturers, not because the
torture is secret, but because the proceedings implicate
the widely known fact that it happened in Poland.
The rules that the government insists may be applied
to deny Abu Zubaydah’s request have been applied with
equal force to foreclose relief to amicus curiae Bilal Abdul
Kareem, a U.S. citizen and journalist whose only sin has
been working in Syria for an independent news network
that provides coverage of various anti-Assad rebels
and others involved in the ongoing conflict there. In the
government’s stated view, the same rules would apply as
well to a U.S. District Court Judge—or a Supreme Court
Justice—who the government had secretly determined,
based on unreviewable (state secret) findings, is a threat to
national security. The incontestable invocation of the state
1. No counsel for a party authored this brief in whole or in
part, and no such counsel or party made a monetary contribution
intended to fund the preparation or submission of this brief.
No person other than the amicus curiae, or his counsel made
a monetary contribution to its preparation or submission. The
parties have consented to the filing of this brief.

2
secrets privilege would prevent the suspected terrorist,
the citizen journalist, and the Supreme Court Justice alike
from seeking relief based on public knowledge to remedy
or prevent deliberately inflicted and unlawful physical
harm from the Executive Branch. This should not be the
law. Amicus curiae Kareem offers his own story in asking
this Court to declare that this is not the law, not in the case
of a Supreme Court Justice, nor an American reporter,
nor even a suspected terrorist.
In the summer of 2016, Bilal Abdul Kareem was
nearly killed five separate times by U.S. launched missiles
with him as the target. These strikes were precise, and
Kareem was their only common denominator. He was
struck twice at his office, twice in his vehicles, and again
while reporting in an otherwise quiet area away from
any field of active combat. Kareem reasonably believed,
based on publicly available information about how the U.S.
identifies targets for lethal action, that the locations of his
cell phone and other signal-emitting devices he used while
interviewing rebels had led U.S. agencies to conclude
wrongly that he was a part of a terrorist organization and
should be placed on the U.S. government’s so-called Kill
List. He was not and is not a terrorist.
In March 2017, Kareem filed a lawsuit seeking to
learn whether he had been placed on this Kill List and, if
so, as seemed certain, to contest this decision to take his
life. Kareem v. Haspel, 412 F. Supp. 3d 52 (D.D.C. 2019),
vacated and remanded, 986 F.3d 859 (D.C. Cir. 2021). Had
he been arrested and charged with criminal conduct, his
right to obtain this information and to defend against it
before he was sentenced to death would be fundamental,
and this Court would not have hesitated to protect it. As it

3
were, however, the government had not bothered to bring
criminal charges against him but had simply ordered his
execution without a shred of due process.
The district court hearing his civil case initially denied
the government’s motion to dismiss it on standing and
political question grounds, declaring that he had pleaded
a plausible claim and had a right as a U.S. citizen to invoke
the Fifth Amendment and demand due process before
the government could terminate his life. The government
then invoked the state secrets privilege and again moved
to dismiss on the grounds that whether Kareem had been
targeted for death is a state secret and the government
need not reveal it. This time, the government was
successful, and the district court dismissed his claim.
Kareem appealed to the D.C. Circuit, which found that
Kareem lacked standing to sue. It reached that decision
based on taking judicial notice of certain reports of bombs
and missiles during combat in Syria, albeit at different
places and different times and of different types than
those that struck Kareem, finding that there was no
plausible basis to conclude that he had been targeted.
Kareem v. Haspel, 986 F.3d 859 (D.C. Cir. 2021). He was,
and he may well remain, a target to this day.
Kareem therefore has a personal interest in ensuring
that the state secrets privilege does not operate to foreclose
accountability by the U.S. government for violations of
law—both at home and abroad. Since the government has
admitted nothing and suffers no questions, Kareem, like
Abu Zubaydah, relied on public information to support
his claim, information which the government somehow
continued to insist was a state secret. As in the case at
bar, the government’s view on the inviolability of the state

4
secrets privilege led it to assert the chilling position that
it could effectively grant itself immunity for executing its
own citizens without any risk of judicial review. Kareem
submits that this unbridled use of the privilege exceeds
what established jurisprudence was intended to permit
and has stripped the Judiciary of its constitutionally
delegated powers to evaluate and reject assertions of the
state secrets privilege.
SUMMARY OF ARGUMENT
The government’s position in the case at bar reaffirms
that, in its view, the state secrets privilege has no limiting
principle whatsoever and that no role for the Judiciary
exists in its application. In the nearly 70 years since this
Court issued its decision in United States v. Reynolds, 345
U.S. 1, 11 (1953), in which it cautioned courts that where
there is “a strong showing of necessity [for evidence], the
claim of privilege should not be lightly accepted,” courts
have repeatedly and almost unwaveringly found that the
government had satisfied all that is required of it each
time it has invoked the privilege. The Ninth Circuit in
the instant case is a lonely exception. It embraced the
commonsense proposition that “in order to be a ‘state
secret,’ a fact must first be a ‘secret.’” Husayn v. Mitchell,
938 F.3d 1123, 1133 (9th Cir. 2019), cert. granted sub nom.
United States v. Husayn, No. 20-827, 2021 WL 1602639
(U.S. Apr. 26, 2021).
The government’s invocation of this privilege has gone
unchecked by the Judiciary for too long, as the litigation
over the state secrets privilege in Kareem v. Haspel
attests. Amicus Kareem’s own case offers this Court a
telling example of the government’s absolutist position

5
and the Judiciary’s abdication of its role to review it.
It shows that the government’s assertion that the state
secrets privilege is utterly sacrosanct leads to indefensible
results. While protecting national security is of significant
importance and a critical function of the Executive Branch,
surely a common law evidentiary privilege cannot entitle
the Executive to override fundamental due process, a
bedrock principle of constitutional democracy. Separation
of powers requires the Court to articulate safeguards
against abuse of the state secrets privilege. It is, and
always has been, the role of the Judiciary to control
the evidence in its courts and to say what the law is. As
conceived by the government, the state secrets privilege
reallocates those functions to the Executive Branch in
violation of the separation of powers.
Kareem’s case vividly illustrates the need to
examine invocations of the state secrets privilege in
their specific settings. While disclosure of a certain type
of information—such as who is on a government Kill
List—may be harmful to U.S. security interests in specific
instances, it is entirely possible that it is not in others, like
where a U.S. citizen-journalist survives missile strikes to
file suit to defend his life. The government’s categorical
approach to state secrets is wrong and dangerous to our
constitutional structure.
Amicus Kareem respectfully urges the Court to
clarify that the state secrets privilege is not beyond
judicial review. It can lose its protected status, just like
any other privileged information, including by waiver and
disclosure to the public.

6
ARGUMENT
I.

The government’s position on the state secrets
privilege has no limiting principle and leads to the
absurd conclusion that it has the power to decide
to kill its own citizens in secret without any due
process or right to judicial relief.

The government’s assertion of the privilege in
Kareem’s case is a compelling example of the urgent need
for this Court to redefine the extent of deference due
when the Executive Branch claims that national security
precludes divulging evidence of its own unlawful activity.
The government wielded the state secrets privilege to bar
Kareem—a U.S. citizen and journalist—from availing
himself of his due process rights where he sought to
contest the substantive basis for his placement on the
Kill List. In Kareem v. Haspel, the court’s unquestioning
deference to the Executive’s view that even telling Kareem
whether he was on the Kill List posed a reasonable
danger to national security accepted as unreviewable the
frightening proposition that the Executive can execute its
own citizens without judicial oversight of any kind. This is
an unacceptable outcome born of the absence of the judicial
branch’s refusal to articulate any limiting principle on
the application of the state secrets privilege. The Court
should take the opportunity presented in the case at bar
to correct course.

7
A.

The government used the state secrets privilege
to foreclose Kareem’s justiciable claim
demanding his Fifth Amendment right to due
process before his government could kill him.

What happened in Kareem’s case should never be
repeated. The district court held that it had the authority
to adjudicate Kareem’s case under the Due Process
Clause. It denied the first motion to dismiss, rejecting
the government’s contention that the claim presented
a nonjusticiable political question because it related to
a national security decision. Zaidan v. Trump, 317 F.
Supp. 3d 8 (D.D.C. 2018). As the district court correctly
recognized, even though Kareem’s claim raised “weighty
matters of law and fact” concerning a decision made by
the U.S. military and/or the Central Intelligence Agency,
constitutional claims are the “bread and butter of the
federal Judiciary,” and Kareem had a “birthright” to
make “a timely assertion of his due process rights under
the Constitution to be heard before he might be included
on the Kill List and his First Amendment rights to free
speech before he might be targeted for lethal action due
to his profession.” Id. at 28, 29.
The government then formally asserted the state
secrets privilege and moved to dismiss because disclosing
whether or not it had, in fact, targeted Kareem for lethal
action “could reasonably be expected to cause . . . harm
to the national security . . . .” Govt. Mem. of Law at 2,
Kareem, 412 F. Supp. 3d 52, ECF No. 24-1. Supporting
the claim of privilege were generalized assertions that the
government should not alert individuals whether they are
on the Kill List because they could then try to avoid the
strikes and/or act more freely in their wrongful activity.

8
Decl. of Patrick M. Shanahan ¶¶ 15-16, id., ECF No. 24-2.
Neither of these rationales made any sense with respect
to Kareem, who sought relief precisely because he became
aware that the U.S. government, without any genuine
basis, was trying to kill him.
Central to the government’s argument was that the
privilege was “absolute” in civil cases. Govt. Mem. of Law
at 9, id., ECF No. 24-1. Kareem challenged the premise
that his case was civil in any meaningful sense of the
word, since the posture was dictated by the government’s
unilateral decision to bypass trial and move straight to
summary execution. Opp. to Mot. to Dismiss at 7, id., ECF
No. 27. In any criminal action involving risk of execution,
for instance, the privilege would “give way” to Kareem’s
constitutional rights. Roviaro v. United States, 353 U.S.
53, 61 (1957) (reversing conviction where government
withheld informant’s identity); United States v. AbuJihaad, 630 F.3d 102, 141 (2d Cir. 2010) (discussing when
a defendant’s right to present a defense “displaces” the
state secrets privilege). The same should be true when an
individual like Kareem plausibly alleges that he is facing
ex ante extrajudicial execution.
However, the district court deemed itself constrained
to determine whether the government had “satisfied the
three procedural requirements for invoking the state
secrets privilege” and conduct a “close examination” of
the assertions of privilege. Kareem, 412 F. Supp. 3d at
56-57. The court acknowledged that there was a difference
between Kareem’s case and other cases where the
privilege was invoked, “but the similarities are controlling
and require the same conclusion.” Id. at 61. No balancing
of interests is permitted under the test; even though

9
Kareem’s interest in his own life was “unquestionably
strong,” because D.C. Circuit precedent held that the
privilege is “absolute” in a civil suit, and the information
was necessary to litigate the case, the court dismissed
the action. Id. at 57, 61.
B. The government admits that its view of the
state secrets privilege is so sweeping that it
would allow it to target and kill U.S. citizens
without due process, including a federal judge
on U.S. soil.
On appeal, the government doubled down on the
assertion that no matter how compelling a need for the
information, the privilege is absolute and there are no
exceptions, not even for “Fifth Amendment claims.” Br. for
Appellees at 32, Kareem v. Haspel, 986 F.3d 859 (D.C. Cir.
2021). No matter who it targeted or where, it could not be
compelled to disclose that information, much less defend
its decision. Id. at 34. In the government’s view, Kareem’s
interest in protecting his life from the government was
just a competing “private interest.” Id. at 31.
The lack of any limiting principle on the state secrets
privilege in the government’s brief was a feature, not a
bug; its counsel confirmed this in a shocking colloquy
during oral argument. The judge asked whether the
government’s position on the state secrets privilege would
be different if she was on the Kill List and the government
intended to kill her in the United States. Even then, the
government did not retreat from the position the privilege
would be absolute and foreclose relief:

10
JUDGE MILLETT: That’s, s[ay] you’re
targeting me to kill me without any process.
And let’s say I’ve gotten past standing. My car
keeps blowing, I’m here in the U.S. and my car
keeps blowing up and I keep getting shot at.
And I say the only explanation for this is I’m
on a kill list by the U.S. government. And let’s
also assume hypothetically that I actually am
on a kill list by the U.S. Government. And the
Government’s position is tough luck. You have
no rights. You have no capacity to get yourself
off that list. I mean, you can write letters to
the Government.
MR. HINSHELWOOD: Your Honor, I think -J U DGE MILLET T: But t hat ’s it . T he
Government may execute me, and there’s
nothing anyone, I can do to stop it or anyone
can do about it.
Appendix at 7a; Full Transcript of Oral Argument at
33-34, Kareem v. Haspel, 986 F.3d 859 (D.C. Cir. 2021),
available at https://bit.ly/37REoiI/.
***
M R . H I NSH ELWO OD: Ok ay. I n t h at
circumstance, whether the Government both for
reasons of a court’s competence to adjudicate
those kinds of questions, which gets to the
political question issues, and the Court’s ability

11
to adjudicate claims where the Government has
properly invoked the state secrets privilege,
and a court has properly determined that the
Government has invoked that privilege, then –
JUDGE MILLETT: Then the answer is there’s
nothing I can do about it.
MR. HINSHELWOOD: There’s no recourse
you can get from -JUDGE MILLETT: There’s no difference
between my, for your political question theory,
there’s no difference between me and Kareem.
MR. HINSHELWOOD: If we’re talking about,
you know, a U.S. citizen who is in Syria -JUDGE MILLETT: No, no. No, no. I don’t
understand why from political question. There’s
nothing in your briefing that says it turns on his
location. So I’m extending it to someone on U.S.
soil. Nothing in your briefing turns on where his
location is at all. If that’s a factor now, you can
tell us. But I assume it’s not for state secrets.
MR. HINSHELWOOD: Certainly not for state
secrets, no.
JUDGE MILLETT: All right. So then what, so
you would still argue political question, just as
you do here. And you would argue state secrets
just as you do here. And if we rule for you, that

12
means I’m hosed. Nothing I can do about this
death sentence.
MR. HINSHELWOOD: Certainly as to
the state secrets privilege. What that, the
invocation of the privilege in this particular
case means that the case cannot proceed.
Now, again, whether that could be different -JUDGE MILLETT: Not just that -- no, no.
What difference? What difference is it if me
rather than Kareem and I’m here in the U.S.?
MR. HINSHELWOOD: Your Honor, I’m sorry.
I don’t want to suggest that there’s, just to
speak about how the privilege applies in these
cases, if your question is can a court once
the privilege is properly invoked, which is
an absolute[] privilege that the Government
is able to invoke in this litigation, can a
court then proceed to adjudicate the merits
nevertheless or disregard the Government’s
application of the privilege, an invocation
of the privilege in that circumstance, the
answer is no.
Now, as a result, as this Court explained in
Halkin, the result may be that meritorious
constitutional claims don’t get litigated, and
that the consequences –
JUDGE MILLETT: This is killing U.S.
citizens. That’s quite a power to say that the
Executive Branch has and it’s absolutely
unchecked. There’s no capacity whatsoever for

13
judicial review, for a habeas action, or this type
of civil action which is a functional equivalent
of a habeas action. There’s nothing whatsoever.
There’s no precedent for that.
Id. at 8a-10a. The judge then asked government counsel
the same and obvious question Kareem had been asking
all along: “Do you appreciate how extraordinary that
proposition is, that the U.S. Government can, the
Executive Branch can unilaterally decide to kill U.S.
citizens…without any process whatsoever?” Id. at 11a.
Whatever the proper scope of the state secrets
privilege, it cannot be so broad as to shield from review
the Executive’s unilateral, secret decision to kill its own
citizens, in the United States, without any due process.
That the government could even conceive of applying it
in Kareem’s case, or the case of an American judge on
American soil no less, bespeaks the urgent need for the
Court to clarify the limits of the privilege and the manner
in which it should be evaluated.
II. Dispositive deference to the Executive’s claim of a
risk to national security violates the separation of
powers and results in abuses of the state secrets
privilege.
Petitioner’s brief in this case posits that the Ninth
Circuit’s disagreement with its opinion that the well-known
fact that Poland hosted a CIA black site constitutes a state
secret is tantamount to a failure to afford appropriate
deference. To the contrary, if the Judiciary is to do more
than rubber stamp the government’s invocation of the
privilege, then deference cannot be the stick by which its

14
ruling on privilege is measured. If deference is an ipse
dixit conclusion that there is a “reasonable danger” to
national security, then the state secrets privilege becomes
something very different from a privilege; it becomes a
license for the Executive to violate the Constitution and
commit crimes without accountability. The Court must
define parameters to the privilege lest the label “national
security” becomes a talisman to cover “a multitude
of sins.” Mitchell v. Forsyth, 472 U.S. 511, 523 (1985).
Existing precedent provides inadequate guidance on the
contours of Reynolds’s instruction that a court should
“probe in satisfying itself that the occasion for invoking
the privilege is appropriate.” 345 U.S. at 11. Reynolds
stops short of saying to what end, and the result is
apparent in the case law.
As evidenced in the colloquy between the D.C. Circuit
panel and the government in Kareem v. Haspel, it is critical
to the rule of law that deference is not synonymous with
mandatory acquiescence. Left unchecked, the Executive
will abuse the privilege, and has inarguably done so
on a multitude of occasions. It is not some far-fetched
hypothetical that the United States would hide behind
the state secrets privilege to execute its own citizens
extrajudicially in a staggering violation of the Fifth
Amendment. It claimed precisely this power in Kareem
v. Haspel. And as a result, the district court abdicated its
own constitutionally ordained role to control evidence to
“the caprice of Executive officers.” Reynolds, 345 U.S. at
9-10. The Executive can deploy the privilege to seize more
than control of the evidence; in Kareem’s case, it seized
the power to decide what the Fifth Amendment requires
before the government may execute a U.S. citizen. A world
in which the Executive and not the Judiciary says what the

15
law is, is upside down. Marbury v. Madison, 5 U.S. 137, 177
(1803). This kind of “encroachment and aggrandizement
[] has animated our separation-of-powers jurisprudence
and aroused our vigilance against the ‘hydraulic pressure
inherent within each of the separate Branches to exceed
the outer limits of its power.’” Mistretta v. United States,
488 U.S. 361, 382 (1989).
It is the role of the Judiciary to distinguish between
legitimate invocations of a common law privilege and
abuses of it. Examples of such “historic judicial authority”
exist because they are “necessary to provide an important
safeguard against abuses of legislative and Executive
power . . . as well as to ensure an independent Judiciary.”
Franklin v. Gwinnett Cty. Pub. Sch., 503 U.S. 60, 74
(1992). In this case, the Ninth Circuit rightly observed
that “the rationale behind the state secrets privilege is
to protect legitimate government interests, not to shield
the government from uncomfortable facts that may be
disclosed or discussed in litigation.” Husayn, 938 F.3d
at 1134. Requiring courts to defer to any invocation of a
theoretical risk to national security and forbidding “second
guessing” presumes the good faith of the Executive. AlHaramain Islamic Found., Inc. v. Bush, 507 F.3d 1190,
1203 (9th Cir. 2007). But when litigants are coming to
court to seek disclosure of secret death warrants and
evidence of their torture, it is a strong indication that
applying the presumption of good faith to the Executive’s
invocation of the state secrets privilege is—in certain
cases—unwarranted.

16
III. Courts should evaluate claims of state secrets
privilege in the specific context of the case and
reject them where they are facially unreasonable.
Courts should evaluate invocations of the state secrets
privilege not with respect to whether disclosure of the kind
of information would be harmful in general, but whether in
the specific case at hand, it poses any reasonable danger.
This requires examination of the plausibility of the
government’s claims in the context of all the circumstances
surrounding the case. Ellsberg v. Mitchell, 709 F.2d 51, 59
(D.C. Cir. 1983); Molerio v. F.B.I., 749 F.2d 815, 822 (D.C.
Cir. 1984) (“[T]he validity of the government’s assertion
must be judicially assessed”).
In Kareem’s case, the government advanced vague
and generalized national security narratives that simply
did not comport with the facts facing the court. The
government filed declarations in support of its motion to
dismiss from then Acting Secretary of Defense Patrick
Shanahan and then Director of National Intelligence
Daniel Coats that were not at all particular to Kareem.
Kareem, 412 F. Supp. 3d 52, ECF Nos. 24-2, 24-3. The
government argued that:
confirming whether or not an individual is
designated for the use of lethal force overseas
would allow an individual who is being targeted
to alter his behavior to evade direct action by
the United States and would alert him and his
associates to the fact that the U.S. Government
is collecting intelligence on him, which could
in turn risk intelligence sources and methods.

17
Govt. Mem. of Law at 11, id., ECF No. 24-1. Informing
“an individual” that he was not designated for lethal force
could also “reveal the scope of U.S. operations” and lead
to others seeking to “ascertain their own status.” Id.
at 11-12. Relying on Secretary Coats’s declaration, the
government contended that the intelligence community
had special concerns:
Confirming or denying whether or not the U.S.
Intelligence Community targets individuals
for the use of lethal force outside of the United
States in the first place (and by implication uses
such lethal force) would also cause harm by
alerting terrorists and terrorist organizations
to specific means that the U.S. Government
is using, or has chosen not to use, to combat
terrorism.
Id. at 12. Yet, as had been alleged in the Complaint, much
of the information about the U.S. lethal targeting program
and U.S. actions in Syria had been made public by U.S.
government agents. Even more important, Kareem was
already aware that the U.S. was trying to kill him and
filed a lawsuit on that basis. He thus urged the court to
deny the government’s motion and rule instead
that the government’s targeting of a U.S.
citizen for lethal action – at least in these
narrow and exceptional circumstances in which
that individual (i) has become aware of the
intent to kill him, (ii) comes to the courthouse
door seeking the due process that has been
denied him, and (iii) plausibly alleges that the
government has mistakenly designated him

18
for lethal action – cannot be deemed a state
secret protected by the common law evidentiary
privilege invoked here.
Opp. to Mot. to Dismiss at 5, id., ECF No. 27. The
government’s public disclosure that another U.S. citizen,
Anwar al-Aulaqi, was on the Kill List, calls into question
the argument that the government applies any consistent
principles as opposed to making ad hoc political decisions.
“Intelligence and counterterrorism officials” informed
the New York Times that al-Aulaqi was on the Kill List
before they then went ahead and killed him.2 Given the fact
that Kareem had already publicly announced that he had
been targeted for lethal action, described in specific detail
the strikes taken on him, had recourse to information
made public by the government itself on how a person
is identified and targeted, and that Secretary Shanahan
himself conceded in his declaration that the United States
was conducting drone strikes in Syria at the relevant time,
it makes little sense to say that it undermines the Republic
for the government to deny Kareem the information
that had been disclosed to the other known U.S. citizen
targeted for death.
IV. State secrets should be subject to the ordinary
limitations on privilege.
Finally, courts must be able to bring to bear their
judicial w isdom and experience in evaluating the
government’s claim that the disclosure of information
2. Scott Shane, U.S. Approves Targeted Killing of American
Cleric, The New York Times (Apr. 6, 2010), https://www.nytimes.
com/2010/04/07/world/middleeast/07yemen.html.

19
poses a reasonable danger to national security. They are
well-equipped to do so. Assessing whether privilege exists
or has been broken is a “familiar judicial exercise” with
judicially discoverable and manageable standards to apply
and the fact that the information bears on national security
or foreign policy does not affect the Judiciary’s ability to
perform its traditional duties. Zivotofsky ex rel. Zivotofsky
v. Clinton, 566 U.S. 189, 196 (2012). The state secrets
privilege is a common law evidentiary rule. Zuckerbraun
v. Gen. Dynamics Corp., 935 F.2d 544, 546 (2d Cir. 1991).
While the standards for invoking the privilege may be
unique (id.), it remains subject to the ordinary limitations
on privilege. Thus, even in the state secrets context,
“prior disclosure of the specific information sought to be
disclosed waives the privilege.” Nat’l Laws. Guild v. Att’y
Gen., 96 F.R.D. 390, 402 (S.D.N.Y. 1982). Similarly, where
a protected fact has become known to the persons from
whom the information was protected, it is not privileged.
Roviaro v. United States, 353 U.S. 53, 60 (1957). And, of
course, where the information has been disclosed to the
public, it is no longer privileged, even if it pertains to
military matters and national security. For example, in
New York Times Co. v. U.S. Department of Justice, the
Second Circuit determined that the CIA had waived the
right to assert secrecy over its lethal targeting program
because its director had discussed the program in public.
756 F.3d 100, 122 (2d Cir. 2014), opinion amended on
denial of reh’g, 758 F.3d 436 (2d Cir. 2014), supplemented,
762 F.3d 233 (2d Cir. 2014) (ordering CIA to submit
Vaughan index in response to FOIA request about secret
drone program).
Whether the government officially or unofficially
discloses state secrets should not matter. There is no

20
principled distinction between disclosures made by U.S.
officials privately to the press and official acknowledgments
by the same U.S. officials that take place at a podium or
in a press release. If the government is not above the
law, their agents’ disclosures of secret information to the
press should constitute waiver of the privilege as to that
information.
Kareem argued that the state secrets privilege should
not apply to the fact of whether the CIA conducts lethal
actions in Syria because it had been made public by
government officials. In September 2015 the Washington
Post reported that multiple U.S. officials disclosed that the
“CIA and U.S. Special Operations forces have launched
a secret campaign to hunt terrorism suspects in Syria as
part of a targeted killing program that is run separately
from the broader U.S. military offensive against the
Islamic State” and that these “high value targets” “are
being identified and targeted through a separate effort.”
Opp. to Mot. to Dismiss at 17, Kareem, 412 F. Supp. 3d
52, ECF No. 27. The Director of National Intelligence
nevertheless maintained that “information regarding
whether or not the United States Intelligence Community
targets individuals for the use of lethal force outside
the United States” is a state secret. Decl. of Daniel R.
Coats ¶ 9, id., ECF No. 24-3. While it is conceivable that
publicly revealing the CIA’s targeted killing program
could impact national security, the choice had already been
made. Nothing about the state secrets privilege requires
courts to suspend common sense and the ordinary rules
of privilege simply because the government changes its
mind or regrets releasing the information once litigation
commences.

21
CONCLUSION
The Court should affirm the judgment of the Ninth
Circuit.
				Respectfully submitted,
Eric L. Lewis
Counsel of Record
Tara J. Plochocki
Lewis Baach K aufmann
Middlemiss PLLC
1101 New York Avenue, NW,
Suite 1000
Washington, DC 20005
(202) 833-8900
eric.lewis@lbkmlaw.com
Counsel for Amicus Curiae

APPENDIX

1a
Appendix
APPENDIX — EXCERPT
OF TRANSCRIPT IN
THE UNITED STATES COURT OF APPEALS FOR
THE DISTRICT OF COLUMBIA CIRCUIT,
DATED NOVEMBER 16, 2020
UNITED STATES COURT OF APPEALS FOR
THE DISTRICT OF COLUMBIA CIRCUIT
No. 19-5328
AHMAD MUAFFAQ ZAIDAN;
BILAL ABDUL KAREEM,
Appellants,
v.
DONALD J. TRUMP, PRESIDENT
OF THE UNITED STATES, et al.,
Appellees.
Monday, November 16, 2020
Washington, D.C.
The above-entitled matter came on for oral argument
pursuant to notice.
BEFORE:
CHIEF JUDGE SRINI VA SA N, A ND CIRCUIT
JUDGES HENDERSON AND MILLETT

2a
Appendix
APPEARANCES:
ON BEHALF OF THE APPELLANT:
TARA J. PLOCHOCKI, ESQ.
ON BEHALF OF THE APPELLEES:
BRAD HINSHELWOOD (DOJ), ESQ.
[28]you know, other, to engage in sort of whatever
journalistic activities they were there to engage in. So,
you know, there are other individuals in the area. So to
suggest that that’s a plausible allegation that he’s been
targeted by that particular attack, there’s nothing to
support that either.
JUDGE HENDERSON: And there’s no allegation
that this was the only Hellfire missile on that particular
day.
MR. HINSHELWOOD: Right.
JUDGE HENDERSON: In other words, there could
have been 20 of them dropping.
MR. HINSHELWOOD: Right. There’s no sort of
information provided in the complaint about -JUDGE HENDERSON: As far as targeting. That’s
what I’m talking about, the targeting.

3a
Appendix
MR. HINSHELWOOD: Right. I mean, all we’re told
in the complaint is just specifically that, you know, he was
there. He saw a drone at some time before the explosion,
sometime later, there was an explosion which he assumes
to be from a Hellfire missile because of the strength
of that explosion. And that’s the sum and substance of
the allegation there. We don’t have any other additional
information on that score.
JUDGE SRINIVASAN: Can I take you to the merits
for a second, to the state secrets question for a second,
[29]unless there’s further questions on standing? So on
state secrets, it seems to me a lot of the force of a state
secrets assertion made by the Government here and what
affect it has on a case turns on whether we treat this as
a civil case or a criminal case, or, as something that is
somewhere in between but for various considerations, we
ought to give it the rubric of one or the other.
And what do we do with a situation in which it’s not a
garden variety civil case because it’s not seeking ex post
compensation for a civil wrong that was imposed at prior
time. It’s also not a garden variety criminal case because
the Government’s not seeking to prosecute somebody. But
it is a situation in which the allegations are that someone’s
been placed on a list for targeted killing by the United
States. And so that is a context in which there’s United
States authority being visited on somebody in the nature
of a criminal, the consequence of a criminal proceeding
if it were a capital case. And so does it seem fair to you,
then, just to treat that as a garden variety civil case, given
that this is the context we’re talking about?

4a
Appendix
MR. HINSHELWOOD: I think it makes sense to treat
it as a civil case for a couple of reasons. One is that what
this Court has recognized and what the Supreme Court
has explained in Reynolds is that there are important
[30]differences between civil and criminal cases. And
that sort of the initiating party in these cases matters in
significant ways. And that’s not to dispute that, you know,
Mr. Kareem has an important interest in these cases. But
as this Court has explained in cases like Halkin II, where
what the plaintiff is essentially asking the Court to do is
balance the importance of their own interest against the
Government’s interest in maintaining state secrets, that’s
not an appropriate inquiry for application of the privilege.
That inquiry goes to the sort of detail and the care
with which the district court is required to scrutinize
the Government’s indication of the privilege because
the privilege itself is absolute. And that’s because, as I
was referencing a moment ago, when the Government is
sued it doesn’t have the same control over the case that
it does when it brings a criminal prosecution. Right? The
rationale of those cases, as Reynolds explains is that there
the Government, in criminal cases, the Government has
the ability to protect information and to make judgments
in the course of charging those cases and prosecuting
those cases that it cannot make when it’s brought to suit
by another plaintiff.
So in these circumstances, and I think Mr. Kareem’s
reply brief is ver y honest about this, it’s simply
asking, I want you to balance my interest against the
[31]Government’s interest and create a new rule. That’s

5a
Appendix
exactly what this Court has said in cases like Halkin
you don’t do. The privilege exists, and it applies in these
circumstances, and that it goes to the way we scrutinize
the claims, the claim of privilege.
And the district court here did that, said it was
carefully examining the Government’s declarations to
determine whether the occasion for invoking the privilege
was appropriate. It correctly made that determination,
you know, for all of the reasons we’ve explained and that
are apparent I think both in the public and the classified
declarations. And in that circumstance, the privilege
applies. That’s how the privilege operates in these cases.
JUDGE SRINIVASAN: So one response to that is
that it’s not the classic situation in which the Government’s
just responding to a lawsuit that’s brought against it
because the offensive move that the Government made is
in the allegation that it put Kareem on the list. And then
once Kareem, and we take that allegation to be true for
present purposes. Once that has happened, then there’s
no, it’s not as if it’s a responsive offensive case to then
bring a civil suit. It’s just that this is all I have left to do.
I’ve got to figure out some way to try to extricate myself
from this predicament I’m in because I think it’s just, it’s
just wrongly founded.
[32]MR. HINSHELWOOD: Your Honor, I mean, I
think the same type of move could be made as to any sort
of claim that seeks prospective relief. So if, for example,
somebody thought they were a target of surveillance and
didn’t believe that surveillance was appropriate, you know,

6a
Appendix
in that circumstance, they could come in and say, well, you
know, the Government has made the first move. It started
to surveil me. And in this context, all I can do is bring a
civil suit. So, you, please -JUDGE MILLETT: Well, let’s just say death is
different, as the Supreme Court has said many times. And
the Government is actually trying, taking the allegations
here, there’s two, the Government is actually trying to
kill him. What’s he supposed to do? And let’s say the
Government’s made, hypothetically, as he says, a serious
mistake. What is he supposed to do?
MR. HINSHELWOOD: Well, Your Honor, in that
circumstance, it’s not that the state secrets privilege
would no longer apply because, again, the type of, the
seriousness of the interest, and again, no one’s disputing
the seriousness of Mr. Kareem’s interest, is the way it
functions under the privilege is to calibrate the inquiry.
But as this Court explained in Halkin as well, when there
are, you know, allegations of serious issues that can’t be
addressed as a result of the invocation of state secrets
[33]privilege, the correct recourse is to the political
branches, right, is to ask Congress to engage in some sort
of creation of a process, something like that. It’s not -JUDGE MILLETT: Sorry, he’s supposed to try and
get a bill passed, and then the Executive Branch would say
Congress can override the Executive Branch’s judgment
about state secrets? That’s your position?

7a
Appendix
MR. HINSHELWOOD: Your Honor, exactly the
contours of what Congress could or could not do in this
area would be -JUDGE MILLETT: No, no, no, no. Come on. Come on.
MR. HINSHELWOOD: Your Honor -JUDGE MILLETT: That’s, so you’re targeting me to
kill me without any process. And let’s say I’ve gotten past
standing. My car keeps blowing, I’m here in the U.S. and
my car keeps blowing up and I keep getting shot at. And
I say the only explanation for this is I’m on a kill list by
the U.S. Government. And let’s also assume hypothetically
that I actually am on a kill list by the U.S. Government.
And the Government’s position is touch luck. You have no
rights. You have no capacity to get yourself off that list. I
mean, you can write letters to the Government.
MR. HINSHELWOOD: Your Honor, I think -JUDGE MILLETT: But that’s it. The Government
may [34]execute me, and there’s nothing anyone, I can do
to stop it or anyone can do about it.
MR. HINSHELWOOD: Your Honor, I think it’s
important to tease the Court two different things that
I think are in your question. So one is, I think part of
your question is getting to some of the political question
doctrine issues in this case, which we --

8a
Appendix
JUDGE MILLETT: I’m just asking you is that your
position that there’s nothing I can do about it? That’s just
a bottom-line question.
MR. HINSHELWOOD: Excuse me, an individual in
Mr. Kareem’s position?
JUDGE MILLETT: My position. I’m on the kill list
under this question.
MR. HINSHELWOOD: Okay. So an individual on the
kill list, you know, hypothetical kill list overseas -JUDGE MILLETT: Oh, no, no. Under my hypothetical,
I am actually on the kill list.
MR. HINSHELWOOD: Right.
JUDGE MILLETT: I suspect I am, and it turns out
I am.
MR. HINSHELWOOD: Okay. In that circumstance,
whether the Government both for reasons of a court’s
competence to adjudicate those kinds of questions, which
gets to the political question issues, and the Court’s
[35]ability to adjudicate claims where the Government
has properly invoked the state secrets privilege, and a
court has properly determined that the Government has
invoked that privilege, then -JUDGE MILLETT: Then the answer is there’s
nothing I can do about it.

9a
Appendix
MR. HINSHELWOOD: There’s no recourse you can
get from -JUDGE MILLETT: There’s no difference between
my, for your political question theory, there’s no difference
between me and Mr. Kareem.
MR. HINSHELWOOD: If we’re talking about, you
know, a U.S. citizen who is in Syria -JUDGE MILLETT: No, no. No, no. I don’t understand
why from political question. There’s nothing in your
briefing that says it turns on his location. So I’m extending
it to someone on U.S. soil. Nothing in your briefing turns
on where his location is at all. If that’s a factor now, you
can tell us. But I assume it’s not for state secrets.
MR. HINSHELWOOD: Certainly not for state
secrets, no.
JUDGE MILLETT: All right. So then what, so you
would still argue political question, just as you do here.
And you would argue state secrets just as you do here.
And [36]if we rule for you, that means I’m hosed. Nothing
I can do about this death sentence.
MR. HINSHELWOOD: Certainly as to the state
secrets privilege. What that, the invocation of the privilege
in this particular case means that the case cannot proceed.
Now, again, whether that could be different --

10a
Appendix
JUDGE MILLETT: Not just that -- no, no. What
difference? What difference is it if me rather than Mr.
Kareem and I’m here in the U.S.?
MR. HINSHELWOOD: Your Honor, I’m sorry. I don’t
want to suggest that there’s, just to speak about how the
privilege applies in these cases, if your question is can a
court once the privilege is properly invoked, which is an
absolutely privilege that the Government is able to invoke
in this litigation, can a court then proceed to adjudicate
the merits nevertheless or disregard the Government’s
application of the privilege, an invocation of the privilege
in that circumstance, the answer is no.
Now, as a result, as this Court explained in Halkin,
the result may be that meritorious constitutional claims
don’t get litigated, and that the consequences -JUDGE MILLETT: This is killing U.S. citizens.
That’s quite a power to say that the Executive Branch
has and it’s absolutely unchecked. There’s no capacity
whatsoever for judicial review, for a habeas action, or this
[37]type of civil action which is a functional equivalent
of a habeas action. There’s nothing whatsoever. There’s
no precedent for that. You’ve got precedent generally on
state secrets, but you’ve got nothing that says executing
U.S. citizens, my hypothetical is on U.S. soil. This case
involves not on U.S. soil.
MR. HINSHELWOOD: Your Honor, certainly there
is no specific case that has addressed this specific type of
claim. But the point is that the privilege itself, the very
premise --

11a
Appendix
JUDGE MILLETT: No -MR. HINSHELWOOD: -- the rationale of the
privilege -J U DGE MILLET T: Do you appreciat e how
extraordinary that proposition is, that the U.S. Government
can, the Executive Branch can unilaterally decide to
kill U.S. citizens, and you’ve given me no basis for
distinguishing it even here on U.S., that power existing
even here on U.S. soil without any process whatsoever.
That would make a lot of things a lot easier.
MR. HINSHELWOOD: Your Honor, I don’t mean to
suggest that the analysis, if you were adjudicating such
a case, would be different as to a person on U.S. soil. You
know, we obviously haven’t -JUDGE MILLETT: Right. You don’t think –
[38]MR. HINSHELWOOD: -- addressed that question
here. My point is simply that as to the state -JUDGE MILLETT: Is there anything in your
arguments that would change based on whether it’s U.S.
soil? I didn’t see anything at all that turned on that.
MR. HINSHELWOOD: Your Honor, we certainly
didn’t -JUDGE MILLETT: Is it less of a political question
if it’s on U.S. soil in your theory?

12a
Appendix
MR. HINSHELWOOD: Your Honor, you know,
whether or not there would be some differences, I simply
don’t have the, you know, we haven’t had to address any
of that at this point. But I take your questions to get to
a significant concern that obviously engaging in a strike
of this nature is a serious undertaking. And there’s no
question that’s true. And the Government absolutely
agrees that in this circumstance the district court has
an important role to play in taking a careful look at the
Government’s assertion of the privilege to ensure that it
is appropriate in the circumstances.
JUDGE SRINIVASAN: May I ask this question -MR. HINSHELWOOD: And there was no question -JUDGE SRINIVASAN: Can I ask this question? So
in Hamdi, if the Government, there was no state secrets
assertion in Hamdi. But if the Government had asserted
the [39]state secrets privilege, would the result have been
that the habeas case goes away and that the detention
authority continues to exist?
MR. HINSHELWOOD: Your Honor, I’m not sure how
that would have sort of played out in those circumstances
because, remember, it’s dependent on the specific facts
that are and information that is removed from the case
on the basis of the privilege. So here, Mr. Kareem cannot
demonstrate even his standing without information
covered by the privilege, or, nor for that matter can, it can
be demonstrated whether or not he has standing at all. So
or not he’s on the, was the target of the --

13a
Appendix
JUDGE SRINIVASAN: Right. I guess I’m just
hypothesizing a situation in which the Government would
say that we can’t get into whether, we can’t get into the
bona fides of the determination that Mr. Hamdi’s an enemy
combatant because if we did that, then it would reveal
too much, and there’s military secrets in play, and the
proceeding just can’t go forward in any way that would
allow us to shed light on the decision-making there. And
therefore, it’s a military secret under Reynolds, and
therefore the proceeding just stops. It’s not criminal. It’s
civil because habeas is a petition that’s filed by the detainee
not an inquiry that’s launched by the Government. And
therefore, there’s nothing further, we just continue to
[40]detain.
MR. HINSHELWOOD: Your Honor, again, if the sort
of occasion for invocation of the privilege is appropriate,
then the consequences that f low from that are the
consequences that flow from that. But of course, as we
know, in the habeas context, the Government has proposed
to the district court, and then ultimately has proceeded to
litigate under certain protections those habeas petitions,
over the last decade. But -JUDGE SRINIVASAN: Without ever asserting the
state secrets privilege as far as I know. Is that, I’m not
aware of, I could be wrong about that, but I’m not aware
of it.
MR. HINSHELWOOD: Right. It’s not asserting the
state secrets privilege in that context. Now, all that goes to
show is that those cases don’t have much to say about what

14a
Appendix
happens when the Government does properly invoke the
privilege. And we know what the answer to that question is
because of the Supreme Court’s decision in Reynolds, and
all of this Court’s cases which have repeatedly echoed the
basic premise that the particular strength of the interest
goes to the scope of the inquiry and not to the availability
of the privilege in the first instance.
JUDGE SRINIVASAN: Okay, thank you. Let me
make sure my colleagues don’t have further questions
for you, Mr.
****

